Close

Submit

APPLICATION AND
SOLICITATION
DISCLOSURE

Platinum Mastercard/Platinum Rewards Mastercard
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

Platinum Mastercard
9.95%
11.95%

,

,

13.95%

,

15.95%

or

17.95%,

based on your creditworthiness.
Platinum Rewards Mastercard
11.95%
13.95%
15.95%

,

,

or

17.95%, when you
open your account, based on your creditworthiness. This APR will vary with
the market based on the Prime Rate.

APR for Balance Transfers

APR for Cash Advances

Platinum Mastercard
9.95% , 11.95%, 13.95%, 15.95% or 17.95%, based on your
creditworthiness.
Platinum Rewards Mastercard
11.95% , 13.95%, 15.95% or 17.95% , when you open your account, based
on your creditworthiness. This APR will vary with the market based on the
Prime Rate.
Platinum Mastercard
9.95% , 11.95% , 13.95%, 15.95% or 17.95%, based on your
creditworthiness.
Platinum Rewards Mastercard
11.95% , 13.95%, 15.95% or 17.95%, when you open your account, based
on your creditworthiness. This APR will vary with the market based on the
Prime Rate.

How to Avoid Paying Interest on
Purchases

Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by
the due date each month.

For Credit Card Tips from the
Consumer Financial Protection Bureau

To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

Fees
Transaction Fees
- Foreign Transaction Fee
Penalty Fees
- Late Payment Fee
- Returned Payment Fee

1.00% of each transaction in U.S. dollars
Up to $25.00
Up to $25.00

How We Will Calculate Your Balance:
We use a method called "average daily balance (excluding new purchases and balance transfers) (including new cash
advances)."
Effective Date:
The information about the costs of the card described in this application is accurate as of: 03/01/17
SEE NEXT PAGE for more important information about your account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

02113173-MXC10-P-1-040417 (MXC101-E)

This information may have changed after that date. To find out what may have changed, contact the Credit Union.
For California Borrowers, the Platinum Mastercard and Platinum Rewards Mastercard are secured credit cards.
Credit extended under this credit card account is secured by various personal property and money including, but
not limited to: (a) any goods you purchase with this account, (b) any shares you specifically pledge as collateral
for this account on a separate Pledge of Shares, (c) all shares you have in any individual or joint account with the
Credit Union excluding shares in an Individual Retirement Account or in any other account that would lose
special tax treatment under state or federal law, and (d) collateral securing other loans you have with the Credit
Union excluding dwellings. Notwithstanding the foregoing, you acknowledge and agree that during any periods
when you are a covered borrower under the Military Lending Act your credit card will be secured by any specific
Pledge of Shares you grant us but will not be secured by all shares you have in any individual or joint account
with the Credit Union. For clarity, you will not be deemed a covered borrower if: (i) you establish your credit card
account when you are not a covered borrower; or (ii) you cease to be a covered borrower.
Other Fees & Disclosures:
Late Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less, if you are six or more days late in making a
payment.
Returned Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less.
Rush Fee:
$30.00.

Mastercard and the Mastercard Brand Mark are registered trademarks of Mastercard International Incorporated.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

02113173-MXC10-P-1-040417 (MXC101-E)

